STATE OF MICHIGAN
DEPARTMENT OF ATTORNEY GENERAL

P.O. BOX 30212
LANSING, MICHIGAN 48909
DANA NESSEL
ATTORNEY GENERAL

April 20, 2021

Scott Harris, Clerk
United States Supreme Court
One First Street, N.E.
Washington, D.C. 20543
Re:

Mike Brown, Acting Warden v. Ervine Davenport
United States Supreme Court No. 20-826

Dear Mr. Harris:
Consistent with Supreme Court Rules 25.5 and 30.4, Petitioner respectfully
requests that the time in which to file his brief on the merits be extended 21 days.
Petitioner requests to extend the deadline for the topside brief by 21 days,
extending the deadline from May 20, 2021, to June 10, 2021. Consistent with the
request, the respondent would also receive an additional 21 days, extending his
deadline by 42 days, from June 19, 2021, to July 31, 2021, making the petitioner’s
reply due on August 30, 2021. Respondent concurs in this request.
Petitioner seeks this extension due to numerous competing deadlines and
obligations as well as the shifting responsibilities during the COVID-19 crisis.
Petitioner’s counsel, as Michigan Solicitor General, is in charge of all appellate
litigation for the State of Michigan and in this capacity is drafting and reviewing
other briefs.
Sincerely,

Fadwa A. Hammoud
Solicitor General
517-335-7628

FAH:hlg
Enclosure (Proof of Service)
cc:
Tasha Joy Bahal, Respondent’s counsel

